OIG Investigative Reports Grand Forks ND, May 25, 2011 - Eight Members of the Spirit Lake Tribe Indicted in Federal Court
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Timothy Q. Purdon
District of Notrh Dakota
FOR IMMEDIATE RELEASE:
May 25, 2011
http://www.usdoj.gov/usao/nd/
CONTACT: JULIE HOUGH
PHONE: (701) 297-7400
FAX: (701) 297-7405
Eight Members of the Spirit Lake Tribe Indicted in Federal Court
GRAND FORKS- United States Attorney Timothy Q. Purdon announced today
that eight members of the Spirit Lake Tribe have been indicted by a federal grand jury and
charged with conspiracy to embezzle from an Indian tribal organization and aiding and
abetting.
The indictment alleges that as part of the conspiracy, the defendants did willfully
embezzle, steal, and misapply property, moneys, funds, and credits belonging to the
Vocational Rehabilitation Program, a program administered by the Spirit Lake Tribe,
Fort Totten, North Dakota.
The eight defendants; Martina Kazena, William Kazena, Raymond Jetty, III,
Tanya Jetty, Shaela Jetty, Lorna Walking Eagle, Rochelle Walking Eagle and
Bruce Walking Eagle   made their initial appearances on May 7, 2011, before United
States Magistrate Judge Alice R. Senechal in United States District Court in Grand Forks,
ND.
The eight defendants appeared at various times for arraignment. Raymond and
Tanya Jetty pleaded not guilty on May 7, 2011. Bruce Walking Eagle, Rochelle Walking
Eagle, and Lorna Walking Eagle pleaded not guilty on May 16, 2011. William Kazena
and Shaela Jetty pleaded not guilty on May 17, 2011, and Martina Kazena pleaded not
guilty on May 24, 2011.
The statutory maximum sentence for conspiracy to embezzle from an Indian tribal
organization is five years in prison and a $250,000 fine.
The case is being investigated by the Federal Bureau of Investigation.
Purdon stressed that an indictment is simply the method by which a person is
charged with criminal activity and raises no inference of guilt. An individual is presumed
innocent until competent evidence is presented to a jury that establishes guilt beyond a
reasonable doubt.
A trial for all defendants is scheduled for July 12, 2011, in United States District
Court in Grand Forks, North Dakota.
Assistant United States Attorney Janice M. Morley is prosecuting the cases.
Printable view
Last Modified: 06/23/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov